Compliance With Standards Governing 
Convicted Offender DNA Sample 
Backlog Reduction Program Activities
The Bode Technology Group, Inc.
Springfield, Virginia




Return
    to the USDOJ/OIG Home Page



Compliance With Standards Governing 
Convicted Offender DNA Sample 
Backlog Reduction Program Activities
The Bode Technology Group, Inc.
Springfield, Virginia
Report No. GR-80-01-018September 6, 2001
Office of the Inspector General

TABLE OF CONTENTS
INTRODUCTION

Scope and Methodology 
Findings and Recommendations
Continuing Education Documentation
Recommendation
Views of Responsible Officials 

APPENDIX I  Scope and Methodology
APPENDIX II  Audit Criteria
APPENDIX III  Background Information
APPENDIX IV  The Bode Technology Group, Inc.